<html>
<title> - [H.A.S.C. No. 114-133]OVERSIGHT OF THE EUROPEAN REASSURANCE INITIATIVE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 114-133]
 
            OVERSIGHT OF THE EUROPEAN REASSURANCE INITIATIVE

                               ----------                              

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              HEARING HELD

                             JULY 13, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               -----------
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
20-820                      WASHINGTON : 2017                    

________________________________________________________________________________________                                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914181a59">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

JEFF MILLER, Florida                 JACKIE SPEIER, California
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
JOSEPH J. HECK, Nevada               HENRY C. ``HANK'' JOHNSON, Jr., 
AUSTIN SCOTT, Georgia                    Georgia
MARTHA McSALLY, Arizona              GWEN GRAHAM, Florida
                 Heath Bope, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Anna Waterfield, Clerk
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Allvin, Maj Gen David, USAF, Director, Strategy and Policy, U.S. 
  European Command...............................................     4
Ellehuus, Rachel, Principal Director, Europe and NATO Policy, 
  Office of the Secretary of Defense (Policy)....................     5
Tyra, Tom, Chief, Global Force Planning, Office of the Deputy 
  Chief of Staff, G-3/5/7, Department of the Army................     6

                                APPENDIX

Prepared Statements:

    Allvin, Maj Gen David........................................    35
    Ellehuus, Rachel.............................................    43
    Hartzler, Hon. Vicky.........................................    33
    Tyra, Tom....................................................    49

Documents Submitted for the Record:

    EuroAtlantic Coalition statement for the record..............    57

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    61
    Mr. O'Rourke.................................................    61

Questions Submitted by Members Post Hearing:

    Mrs. Hartzler................................................    65
           
       
           OVERSIGHT OF THE EUROPEAN REASSURANCE INITIATIVE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Wednesday, July 13, 2016.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Good afternoon.
    I would like to extend a warm thank you to our witnesses 
testifying before us today. Thank you for being here.
    Before I begin, I would like to welcome the members of the 
full committee who are not permanent members of the 
subcommittee who are attending today.
    I ask unanimous consent that these committee members be 
permitted to participate in this hearing, with the 
understanding that all sitting subcommittee members will be 
recognized for questions prior to those not assigned to the 
subcommittee.
    Without objection, so ordered.
    I also ask unanimous consent to include into the record all 
members' statements and extraneous material for members of the 
committee unable to attend today's hearing and who have asked 
to include a statement for the record in lieu of attendance.
    Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mrs. Hartzler. This afternoon, this subcommittee plans to 
discuss the European Reassurance Initiative, or ERI, with 
representatives of the U.S. European Command, the Office of the 
Secretary of Defense, and the Army. All have important roles in 
this initiative's development, implementation, and execution.
    The goal of this hearing is to assess how the Department 
[of Defense] has implemented the initiative since it was 
announced, authorized, and appropriated by Congress beginning 
in fiscal year 2015. We also seek to understand how the 
Department plans to execute the initiative through fiscal year 
2017.
    We would also like our witnesses to discuss the 
opportunities and challenges facing implementation within the 
current European security environment and how the initiative 
competes for resources among other critical priorities within 
the Department, including readiness.
    A military that is not ready to deploy cannot credibly 
serve as a deterrent against aggressive behavior. The 
Department of Defense [DOD] does not have enough ships to 
maintain a constant presence in key waters. They don't have a 
large enough end strength to support a permanent presence in 
Europe. And the Department's nuclear enterprise and missile 
defense systems are in dire need of modernization.
    The recent NATO [North Atlantic Treaty Organization] Warsaw 
Summit underscored many security challenges that Europe faces 
today. Foremost of these challenges is a resurgent Russia. The 
Warsaw Summit provided the opportunity to help form a cohesive 
and comprehensive NATO plan to counter Russian actions, using 
both conventional and unconventional methods, but there is much 
more to be done. Vigilant oversight and consistent evaluation 
will help ensure that the European Reassurance Initiative 
invests in the right areas and utilizes resources effectively 
and efficiently.
    From recent congressionally mandated reports submitted by 
the Department, it seems the Department's strategy, operations, 
and posture are evolving to adapt to the new security model in 
Europe.
    We must also address the important issue of funding the 
ERI. Currently, money for the initiative is requested annually 
through the overseas contingency operations [OCO] budget. While 
drawing from these funds provides near-term flexibility and 
responsiveness, relying on such year-to-year appropriations 
does not allow the Department of Defense to confidently plan or 
implement an evolving strategy in the region.
    The House-passed fiscal year 2017 National Defense 
Authorization Act addressed part of this issue by reallocating 
$2.2 billion of the request into the base budget. In doing so, 
the House has demonstrated its enduring commitment to the 
success of the European Reassurance Initiative.
    So I look forward to discussing the Department's strategy 
and the issues I have outlined. But before I introduce the 
witnesses, I turn to the Oversight and Investigations 
Subcommittee ranking member for any opening remarks that she 
would like to make.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 33.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Speier. Thank you, Madam Chair.
    Today's hearing is about the ERI, a program to deter 
Russian aggression and reassure our European partners and 
allies of our commitment to their security and territorial 
integrity.
    We should have no doubt that Russia does indeed pose a 
threat, but this threat looks very different from the 1980s. We 
should be mindful of this difference and allocate our scarce 
resources accordingly.
    Recent events in Europe have underscored this threat. For 
example, Russia has occupied Crimea and has fomented the 
continuing separatist struggle in eastern Ukraine. Across 
Europe and in particular along Russia's border, the threat of 
Russian intervention is on many people's minds.
    ERI began in fiscal year 2015 as a way to reassure our 
allies that we stand with them against these threats. If 
approved, ERI would shift focus to deterrence in fiscal year 
2017. It would increase the U.S. presence in Europe, build 
partner capacity, improve infrastructure, and facilitate 
interoperability. Over half of ERI funding is for 
prepositioning military equipment, which would reduce the 
reaction time needed for U.S. personnel to respond to urgent 
crises.
    I want to make sure programs like ERI take into account the 
current environment to deter Russian aggression in a 
sophisticated and measured way. Funding is expected to 
quadruple to $3.4 billion in fiscal year 2017, so it is even 
more important that Congress provide effective oversight.
    We should also keep in mind threats like cyber and hybrid 
warfare. I want to ensure, in addition to the challenges 
addressed by ERI, we are assisting our allies to guard against 
less conventional tactics.
    In addition to our commitment, our NATO partners must do 
their part and work to increase their capabilities, presence, 
and defense spending. The best defense of Europe is a strong 
collective defense. At last week's NATO summit in Warsaw, NATO 
leaders underscored their commitment to unity.
    Finally, I would like to know whether ERI achieves the 
right balance. Does it address the needs and requirements in 
Europe, and are we realistically looking at a long-term 
investment?
    I have concerns that the fiscal year 2017 funding for this 
program is requested through the OCO. The OCO funding is 
generally considered to be a temporary war fund. It looks 
increasingly like the ERI is going to be a long-term program. 
It also seems like Russia's destructive influence and 
destabilizing efforts will continue for years to come. Given 
this, using OCO to pay for ERI is no longer appropriate.
    Further, what message does it convey to our allies when we 
put this, quote, ``reassurance,'' unquote, program into a 
temporary funding account? It doesn't seem very reassuring. As 
we evaluate ERI today, I want to ensure our investment is made 
in the right way with long-term strategic planning and 
oversight in mind.
    And I yield back.
    Mrs. Hartzler. Thank you, Ms. Speier.
    I am pleased to recognize our witnesses today. I want to 
thank them for taking the time to be with us.
    We have with us Major General David Allvin, the Director of 
Strategy and Policy at U.S. European Command; Ms. Rachel 
Ellehuus, Principal Director, Europe and NATO Policy, Office of 
the Secretary of Defense for Policy; and Mr. Tom Tyra, the 
Chief of Global Force Planning in the Office of the Deputy 
Chief of Staff, Department of the Army.
    Thank you all for being with us. And so now we will hear 
your opening statements.
    Major General Allvin, we will begin with you.

STATEMENT OF MAJ GEN DAVID ALLVIN, USAF, DIRECTOR, STRATEGY AND 
                 POLICY, U.S. EUROPEAN COMMAND

    General Allvin. Thank you, Chairman Hartzler, Ranking 
Member Speier, and members of the committee. I want to thank 
you for the opportunity to appear before you today and discuss 
the European Reassurance Initiative, or ERI.
    I would also like to express my sincere thanks on behalf of 
my commander and the Department of Defense for your support of 
this important initiative over the past 3 years. We believe it 
is making a real difference.
    The strategic environment in Europe has changed drastically 
over the past 30 months. One of the key reasons for the growing 
instability has been Russian malign influence, coercion, and 
aggression against NATO allies and other partner nations.
    Since the illegal annexation of Crimea and the Russian 
activity in the Donbass region of Ukraine, the potential for 
Russia to further advance their military adventurism into NATO 
countries has demanded a strong response.
    We at U.S. European Command have been working to assure our 
allies that our commitment to Article 5 of the Atlantic Treaty 
is ironclad. The first 2 years of the European Reassurance 
Initiative were largely focused on assurance. To an extent, 
assuring our allies has a deterrent effect in and of itself.
    However, as we continue to see a malign influence and a 
Russia acting to upset international norms, we have 
transitioned beyond purely assurance. We are planning and 
executing activities designed to serve as a stronger deterrent 
to Russian aggression. The fiscal year 2017 ERI submission of 
$3.4 billion reflects this transition, and I would again like 
to thank the committee for its support.
    The rapid change in the security environment requires a 
prompt answer. ERI has provided the funding mechanism to 
respond quickly and effectively, while the Department conducts 
the full analysis as to which of these requirements are 
enduring and which may be shorter-lived to provide the 
appropriate counter to Russian aggression.
    At U.S. European Command, we also understand that there are 
fiscal pressures facing all government budgets. One of our most 
foundational principles as we design, plan, and execute our ERI 
activities is to preserve the integrity of the program and 
ensure that we are being responsible stewards of the taxpayers' 
dollars.
    Through close coordination with our policy and comptroller 
leadership in the Department, as well as the responsive 
oversight provided by Congress, we will continue to provide 
effective deterrence and assurance measures to prevent a 
conflict in Europe, which could have the potential to spread to 
the homeland.
    Again, thank you for the opportunity, and I look forward to 
your questions.
    [The prepared statement of General Allvin can be found in 
the Appendix on page 35.]
    Mrs. Hartzler. Thank you very much.
    Ms. Ellehuus.

 STATEMENT OF RACHEL ELLEHUUS, PRINCIPAL DIRECTOR, EUROPE AND 
    NATO POLICY, OFFICE OF THE SECRETARY OF DEFENSE (POLICY)

    Ms. Ellehuus. Thank you.
    Chairman Hartzler, Ranking Member Speier, distinguished 
members of the committee, thank you also for the opportunity to 
discuss the U.S. European Reassurance Initiative as well as 
some of the recent moves that NATO has taken under the Warsaw 
Summit.
    Prior to but particularly since 2014, we have really felt 
acutely the changed security environment in Europe. Where 
previously European Command had been focused on theater 
security cooperation and support to other combatant commands, 
we now face a real threat in the European theater, whether it 
is to the east or to the south.
    And thanks to the help and the responsiveness of ERI, we 
have been able to respond rapidly to this changing security 
environment. We are working very closely with individual 
allies, with NATO, as well as within the U.S. Government, to 
reinforce our collective commitment to NATO Article 5.
    Since 2014, when we began ERI, we have moved from assurance 
to deterrence, in step with the security environment. And 
looking forward to 2017, we will continue to move in that 
direction, as Russia's provocation does not change. We have 
seen increased exercises, irresponsible behavior from the 
Baltics to the Black Sea, and we need to continue to move in 
step with that.
    I wanted to, rather than focus on the five lines of effort, 
which General Allvin has already highlighted, talk about how 
U.S. leadership in this regard is paying dividends.
    Europeans and NATO are stepping up. At the recent Warsaw 
Summit, Secretary General Stoltenberg was able to report and 
announce that a majority of allies had either halted or 
reversed downward trends in their defense spending and, for the 
first time since 2009, overall NATO defense spending had 
increased.
    These are positive trends. We see individual allies 
stepping forward, as witnessed by the enhanced forward presence 
whereby alongside the U.S., the U.K. [United Kingdom], Germany, 
and Canada will provide framework nation status in the three 
Balts [Baltic States] and Poland. So we are seeing very 
positive signs that our leadership in this area is making a 
difference.
    That having been said, we need to continue to work at this. 
And the three challenges that I see post-Warsaw and as we 
continue to think about the future of ERI are: firstly, 
institutional adaptation. We need to find a way to make NATO 
more agile in terms of its decisionmaking, command structure, 
and defense planning. Secondly, defense investment, and that is 
not just monetary but also in terms of political will. We need 
to encourage folks to continue to increase their defense 
spending and to support operations both within the European and 
transatlantic theater and further afield. And, finally, we need 
to combat internal political challenges and resist those who 
seek to divide us or undermine the international security 
order.
    In these past 2 years and in the 50-plus years that NATO 
has existed, we have found one thing as the threats have 
evolved and the security involvement has evolved, and that is 
that we are stronger together. So thank you for your support.
    [The prepared statement of Ms. Ellehuus can be found in the 
Appendix on page 43.]
    Mrs. Hartzler. Thank you, Ms. Ellehuus.
    Mr. Tyra.

STATEMENT OF TOM TYRA, CHIEF, GLOBAL FORCE PLANNING, OFFICE OF 
   THE DEPUTY CHIEF OF STAFF, G-3/5/7, DEPARTMENT OF THE ARMY

    Mr. Tyra. Madam Chairman, Ranking Member Speier, 
distinguished members, I thank you for the opportunity to 
explain the Army's contribution to the European Reassurance 
Initiative.
    I have provided a written statement. I would ask that you 
put it into the record and we proceed to your questions.
    Mrs. Hartzler. So ordered. Thank you.
    [The prepared statement of Mr. Tyra can be found in the 
Appendix on page 49.]
    Mrs. Hartzler. All right. I very much appreciate each of 
your comments. Now we will begin with some questions.
    So, in February of this year, former Commander of U.S. 
European Command General Breedlove noted in his posture 
statement that EUCOM has less than the minimum required 
personnel, equipment, and resources to accomplish our current 
theater strategy.
    Can you elaborate on these shortfalls that General 
Breedlove references? And will the ERI budget request mitigate 
some of these shortfalls and gaps? And are there any other 
additional resources that are needed to sufficiently support 
ERI?
    So, General, I want to start with you.
    General Allvin. Yes, ma'am. And with the reference to the 
personnel, equipment, and resources, we find that within the 
European theater we see a more aggressive Russia that is 
influencing on the periphery states of NATO.
    And so, given the current correlation of forces that might 
exist in a conflict, specifically with the United States, we do 
not have nearly the forces we had after 25 years of the 
degradation of the forces in Europe.
    This has been understandable because there have been other 
national security priorities that obviously have taken 
precedence in other parts of the world. However, we find 
ourselves now with a smaller number of forces from all services 
as well as the appropriate equipment in order to be able to 
field and to respond to any other Russian aggression.
    And I would say that what ERI has done is it has rapidly 
enabled us to reverse that trend. Specifically, when we look at 
our fiscal year 2017 submission, when we look at this heel-to-
toe rotation, that is an additional armored brigade combat team 
that is able to make its way into theater with its equipment 
full-up and ready to train not only with our joint force in the 
United States forces but also with our partners and allies to 
enhance interoperability.
    I would say that also the submission for the APS, or the 
Army Prepositioned Stocks, offers the opportunity for that 
additional equipment that can start to come closer to leveling 
the playing field, if you will.
    But understanding the resource-constrained environment that 
we are in, we are pleased with the submission in moving the 
right direction to be able to recover those resources and the 
manpower and the forces to be able to deter further Russian 
aggression. And if the deterrence succeeds, we won't have to, 
God forbid, get in a conflict.
    Mrs. Hartzler. That would certainly be the goal.
    Do either one of you want to weigh in on that question?
    Ms. Ellehuus.
    Ms. Ellehuus. Yes, certainly. Thank you for the 
opportunity.
    I think the unfortunate reality is is that, given today's 
security environment, demand continues to outpace supply. And 
the flexibility of funds, such as ERI and some of the training 
funds that you have provided us to build partner capacity not 
just of allies but also of partners, help us offset that fact.
    One of the other things I would like to highlight is how we 
offset our risk with our cooperation with allies and partners. 
So I think increasingly you are seeing the United States 
cooperating at a strategic level and at an operational level 
with NATO allies.
    So we have seen the French carrier Charles de Gaulle deploy 
in the Middle East to help us with some of our stress on our 
naval and maritime forces. We have seen, you know, cooperative 
arrangements to use one another's bases. And we have seen host 
nations stepping up. So when we send our forces to the Baltic 
States, host nations such as Poland and the Balts are stepping 
forward to provide that infrastructure and support.
    So, as we realize that the demand outpaces the supply, we 
need to look and rely more heavily on our allies and partners 
to help us out.
    Mrs. Hartzler. Very good.
    Mr. Tyra.
    Mr. Tyra. Yes, thank you.
    So the ability to deploy, first, in and of itself, will 
make the Army more capable of meeting its global requirements. 
The units that we deliver, though, will be decisive-action-
trained, so we would consider they are ready to conduct 
operations.
    The ability to work with allies and partners and develop an 
interaction capability and a commonality of training and 
equipping and the ability to fight together is a bonus. And I 
think we would view this as actually building readiness higher 
than it is as we developed, and, over time, the soldiers that 
make those rotations will come back better able.
    Mrs. Hartzler. Very good.
    Ms. Ellehuus, you discussed the recent NATO summit and some 
of the outcomes of that. And I think it is encouraging, the 
increased amount of resources that the countries are providing 
and their joint willingness to work with us on training and 
having that forward presence.
    But I just wonder, do you see any risk to NATO's cohesion? 
And, if so, what are those potential risks there? And how 
should NATO's Article 5 and 6 commitments be applied in this 
highly ambiguous domain?
    Ms. Ellehuus. Thank you.
    Well, certainly there are a number of forces and actors who 
are trying to undermine alliance unity, but, fortunately, the 
Warsaw Summit was a representation of the fact that we are 
committed to collective defense and they won't be able to do 
that.
    So, whether it is Russian propaganda in the Baltic States 
and Poland or in Central Europe or it is, you know, provocative 
actions towards our ally Turkey, I think we have demonstrated 
through Warsaw and our commitments there to collective defense 
and Article 5 that we are going to be sticking together and we 
are not going to allow them to undermine that.
    I am anticipating a question about Brexit, so I will 
preempt it, but we have----
    Mrs. Hartzler. Please tell us about Brexit and your 
feelings on its impact.
    Ms. Ellehuus. We have a very close relationship, uniquely 
close relationship, with the United Kingdom, and, you know, in 
anticipation of a ``yes'' or a ``no'' vote, we continued to 
reinforce that relationship.
    In the days following the Warsaw Summit and the vote, the 
U.K. has reinforced its commitment to a number of important 
initiatives. So they have publicly committed at the Farnborough 
Airshow to their maritime patrol aircraft and the commitment to 
procure nine P-8s. They have announced procurement of Apaches, 
and they have announced intent to move forward as quickly as 
possible--I believe it is the 18th of July--with a debate on 
their continuous at-sea deterrence and that principle.
    So I think that, while there are external forces that seek 
to divide, we have presented a united front and that, even 
given some of the trends that could undermine our ability to 
operate effectively and together, we have a strong enough base 
that I think we will manage to weather the storm.
    Mrs. Hartzler. I would cautiously say I think I am 
optimistic or encouraged by some of the recent events and some 
of the things you just shared. So that is good news.
    I now turn to the ranking member, Representative Speier, 
for her questions.
    Ms. Speier. Thank you, Madam Chair.
    General Allvin, in your statement, you said that Russia 
employs multiple types of warfare--conventional, irregular, and 
asymmetric--to induce regional instability.
    How is the ERI going to improve our ability to defend 
against Russia's asymmetric tactics?
    General Allvin. Thank you very much for that question.
    I would say two things. With respect to sort of the hybrid 
warfare, which is one of the common terms, hybrid warfare is 
neither new or unique, but the way the Russians are applying it 
very effectively now is primarily below the conventional level.
    So I would say that the way that the European Reassurance 
Initiative approaches this is, with our partners and allies 
specifically in areas which are susceptible or have been 
susceptible to some of these hybrid tactics, whether they be 
information operations or propaganda or cyberattacks or these 
sort of things that disrupt the internal governmental flow or 
the workings of the government, the European Reassurance 
Initiative has allowed us to have engagements in those 
countries. There has been some of the funding that has gone 
towards some of the cyber engagements that we can teach our 
tactics and procedures about attribution, about hardening and 
resilience with the cyber capabilities, about attributing not 
only the cyberattacks but also some of the propaganda. So it 
really is an awareness and sharing the tactics and techniques 
that we use to be able to highlight those.
    But I would say that, on the hybrid warfare, part of the 
hybrid is the high end, and the high end is the conventional 
conflict. And I would say that, historically, has proven to be 
the most costly and the most irreversible. And so, if we can 
continue to reassure and now deter that conventional conflict, 
it at least sort of brackets it and allows us to work down in 
some of these lower areas of malign influence and coercion 
beyond the large conventional conflict.
    And so I think the ERI helps us both have a stronger 
deterrent effect against the conventional conflict, but there 
are elements that we are doing with engagement and resilience 
and hardening that help against some of these elements of the 
lower echelons of hybrid warfare.
    Ms. Speier. Major General, you had indicated to me 
privately that the troops that we will have stationed as part 
of ERI would be engaged in military exercises. And you had 
suggested that the numbers may be as high as 100 per year--some 
smaller, some larger. How many of these are airshows?
    General Allvin. Ma'am, I actually wouldn't put an airshow 
in the----
    Ms. Speier. Good.
    General Allvin [continuing]. Category of exercises.
    When we refer to these exercises and when I say 100, some 
of these are small, maybe company-level exercises, but these 
are building that understanding, that cohesion at the unit 
level. And I would say those are the most prolific.
    However, with the initial funding we have been able to 
receive through ERI, we are able to have exercises at the 
larger level, the battalion level and above, which really help 
us to understand the interoperability between formations. 
Because we understand that U.S. European Command will not be 
the sole entity that will have to defend against Russian 
aggression. We will be fighting with our allies and partners in 
the region.
    And so these broader exercises, these higher-level 
exercises really enhance that confidence to be able to fight 
and maneuver and do combined arms warfare beyond just the 
United States but in the coalition.
    Ms. Speier. Mr. Tyra, what type of military equipment do 
you expect to be deployed over the next 5 years as part of the 
ERI?
    Mr. Tyra. So, in the next year, we intend to build an 
armored brigade combat team. If supported, we intend to build a 
fires brigade, which is artillery, which would be tube and 
rocket artillery, to add to it.
    We intend to build a division headquarters battalion, which 
is the equipment that the division commander and his staff 
use--approximately 500 soldiers. So it would be, you know, 
computers, radios, satellite communication, vehicles, that kind 
of stuff, to allow them to conduct mission command throughout 
the region. And that will be in 2017.
    If the program continues, we would look to meet the next 
identified requirements for the defense of Europe. And I think 
you would expect to see engineering battalions moved over 
there. I think you would expect to see possibly the ground 
element of an Army aviation brigade. I think we would want to 
see more satellite communication, more logistics, and whatever 
was required to speed the delivery of a fighting force.
    Ms. Speier. So, in terms of actual weapons to be warehoused 
over there in the next year, we are not talking about a sizable 
number of weapons systems being transferred over there? I was 
under the impression that that is what we were doing.
    Mr. Tyra. So, in the first armored brigade combat team, you 
would see 80 M1 tanks and 140 Bradley Fighting Vehicles, 18 
artillery systems, a number of mortar systems and smaller 
pieces of equipment. So we would end up with that, plus the 
support vehicles that enable that to fight.
    Then there would be a rotating brigade that would bring 
identical sets of equipment. As you delivered the fires 
brigade, you would expect, you know, another 100 or so 
artillery systems, either tube- or rocket-launched, to be added 
to that fires brigade.
    Ms. Speier. Okay. Thank you.
    Ms. Ellehuus, you know, this is an example of mission 
creep. I might actually be supportive of this, but this started 
out as a $1 billion emergency fund for 1 year, and now it is 
morphing into a $3.4 billion program that, for all intents and 
purposes, is becoming permanent.
    What do you see the funding levels growing to in subsequent 
years?
    Ms. Ellehuus. Well, certainly, we are aware of this tension 
between things that are paid for through supplementary funding 
as opposed to things that are part of our regular base budgets. 
And when we vet the requests that come through from the 
services and the combatant commands, we take a very close look 
at those to make sure that we are not funding enduring 
requirements indefinitely, and over time we too would like to 
see more things move into the base, not least because, as all 
of you have said, it provides a degree of certainty to our 
allies and partners that our commitment is enduring rather than 
year to year.
    In terms of future-year budgets, I mean, we do have to plan 
against a baseline, so, you know, I would anticipate that we 
would plan against last year's baseline as a going-in 
proposition and then adjust from there. But, you know, we don't 
want to come in every year asking you to double this amount. We 
do need to continue to protect the integrity of the program and 
take a close eye at what is being proposed and what fits with 
what we need to respond to the strategic environment and 
whether we are using the right sources of money.
    Ms. Speier. Thank you, Madam Chair. I yield back.
    Mrs. Hartzler. Thank you.
    Now we will go to the gentleman from Georgia, Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    Ms. Ellehuus, this is somewhat of an opinion question, I 
recognize, but it is something that I ask myself. Russia's 
economy today, the impact that it has on Putin's decisionmaking 
process and how aggressive he is. The weakness in his economy 
could lead him to be more aggressive; it could lead him to be 
less aggressive.
    What is your opinion on that, whether or not he is less 
aggressive or more aggressive because of his current economic 
state? And what happens if the price of oil returns to where 
his economy actually recovers?
    Ms. Ellehuus. Thank you for your question.
    Yes, it is certainly a difficult balance to determine 
whether we want a strong Russia or an internally destabilized 
Russia. So when we think about things like sanctions and oil 
prices, certainly, instability in Russia is a concern, as well 
as external provocation.
    It is hard to say exactly when I look at what causes a 
reaction from Mr. Putin and what does not. It seems like, you 
know, we can try to get into his mind and guess at what is an 
excuse for provocation, but I don't think that he necessarily 
needs one.
    I take the example of two recent exercises that we had in 
Europe. We had Anakonda just here in the beginning of June with 
31,000 soldiers from 24 nations. We also had BALTOPS 16, which 
has been happening for decades, and that had about 6,100 
soldiers. And it is something that the Russians have been 
invited to previously, they are aware of. And, of the two 
exercises, he griped about BALTOPS rather than Anakonda.
    So it is hard to get into the mindset and sort of determine 
what would be provocative and destabilizing. But I think, in 
the first instance, we need to make sure that we are doing the 
best to make sure that we deter his aggression and that we are 
prepared if that deterrence fails.
    Mr. Scott. And correct me if I am wrong. It seems to me 
that maybe his perception of weakness on the other side may be 
more of a determining factor than how strong he is internally 
or his country is financially.
    Ms. Ellehuus. Yes. I think an outward show of strength is 
something that reinforces domestic support for his leadership. 
And so, if there is an opportunity or an opening to demonstrate 
that resolve against NATO or individual allies, I think we have 
seen he is an opportunist and will take that initiative.
    Mr. Scott. But if that outward show has--the more risk that 
that outward show has, the less likely he is to engage in it 
then. Would that be a fair statement?
    Ms. Ellehuus. Could you please repeat that?
    Mr. Scott. So the less likely he is to--the more strength 
that there is on the other side of it, the less likely he would 
be willing to engage in those provocative behaviors.
    Ms. Ellehuus. Yes. I think that is certainly our intent 
with the moves we are trying to take under ERI and in the NATO 
context.
    Earlier, resilience was mentioned. And if you build 
resilience in a country and you give them options--so, for 
example, you know, if Putin thinks one of the tools at his 
disposal is cutting off energy supplies in the Baltic States or 
the Black Sea, he will use that. But if there is kind of a 
safety net and an alternative, it undermines his ability to 
hold them at risk.
    So demonstrating strength is certainly a way to change that 
calculus and make the costs outweigh the risks.
    Mr. Scott. And so this helps get to my point, which may be 
contradictory, respectfully, to another colleague's point.
    If we have a short-term commitment, he can simply wait us 
out, where if we show a long-term commitment, then maybe he 
doesn't feel like he is--maybe he is not as froggy, as we would 
say in south Georgia----
    Ms. Ellehuus. Right.
    Mr. Scott [continuing]. If you will.
    Ms. Ellehuus. It is difficult to know, sir.
    Mr. Scott. What other plans, other than the European 
Reassurance Initiative, does the DOD have to deter Russia over 
the long term?
    Ms. Ellehuus. Well, I know that we have a number of 
classified programs, which we would be happy to come back and 
discuss in another forum, that try to look at some of Russia's 
capabilities and the military buildup that they have undertaken 
in recent years and how we might get at that.
    For example, I think you are all very familiar with the 
third offset strategy and some of the efforts we are trying to 
take to think about how we change the way we approach 
conventional capabilities and make sure we retain the military 
edge. So that is definitely one thing.
    Also, I would say that, you know, in addition to European 
Command, we have to remember that other combatant commands have 
a role in deterring Russia. So I know that Northern Command is 
looking very closely at the Arctic and what Russia is doing in 
the Arctic and trying to make sure that, while we keep that 
stable and safe and demilitarized, we are not being naive about 
what Russia's intentions there. Similarly, PACOM [U.S. Pacific 
Command] has a role to play. If you are on the west coast, that 
is how you are looking at the Russia threat. So there are a 
number of initiatives underway across the Department.
    Mr. Scott. My time has expired, but, Madam Chair, I hope we 
have a time for a second round of questions.
    Mrs. Hartzler. Yes. I do too. Thank you.
    Now we turn to the gentlelady from Florida, Ms. Graham.
    Ms. Graham. Thank you very much, Madam Chairwoman. I 
appreciate it.
    And thank you all very much for being here today.
    Please pardon my lack of knowledge in this area, but what 
is Russia doing in the Arctic?
    Ms. Ellehuus. Well, certainly, they have a presence there, 
and a great part of their territory is in the Arctic, so a lot 
of that presence is legitimate. It is economic interests, and 
as we see new seaways opening up, I think they are thinking 
ahead to the economic opportunities but also to being able to 
control those lanes and passageways.
    So, in addition to military buildup in the Baltic Sea 
region, we are seeing some changes in military buildup in the 
Arctic, as well--increased exercises and presence that we 
hadn't seen to date.
    So, while some of the presence is certainly legitimate and 
in defense of their economic and legitimate interests, some of 
it is a little bit worrying, given that in the Arctic Council 
and other fora we really try to focus on keeping that a 
conflict-free zone and keeping it stable.
    Ms. Graham. Uh-huh. Anything else to add by the other two 
panelists?
    General Allvin. Ma'am, I would just add the one. Sort of an 
exclamation point on that is, you know, beyond their legitimate 
interests, I forget how many years ago, but they did take sort 
of the rhetorical point of placing a platinum Russia flag on 
the northern pole, sort of staking their claim to the very 
north part of the Arctic.
    So there is some rhetoric that is sort of this bullying 
type of behavior that has been consistently how they approach 
things.
    Ms. Graham. Uh-huh. Thank you.
    And I think that segues nicely into my next question: Putin 
as a bully and how we deal with that type of a personality, the 
uncertainty that he presents. Because we never know what he is 
going to do. He is capable of anything.
    So I would like you all to address that. How do we deal 
with someone of the personality type of a Putin?
    General Allvin. Ma'am, I will take the first shot at that, 
and then the smarter people to my right and left will probably 
be able to improve on that.
    But that is a question that we ask ourselves continuously. 
And I think, absent being able to get into the mind of Mr. 
Putin, which none of us have been able to, I think that we go 
back to the principles, I guess, of deterrence, when, in fact, 
we look at the principles of what we need to do to prevent 
certain behavior or unacceptable behavior from occurring from a 
certain actor.
    And the deterrence theory really says, if you want to 
prevent that behavior, you need to do a couple of things. You 
either need to convince that potential doer of adversarial 
actions that the outcome that they seek will not be attainable, 
they will not achieve the benefit that they perceive they are 
going to achieve by that, or, in the pursuit of that, the cost 
will be so high that it will not be worth that benefit they 
anticipate they are going to gain.
    And so that really is the traditional deterrence paradigm. 
So if you perceive him as a bully or if you perceive him as a 
confident, aspirant, great-power leader, however you do that, 
we judge his actions and we look at what the potential actions 
would be that would be adversarial to our national security 
interests, and then what are the things we can do to either 
make that perception that it is unattainable or that the cost 
of attaining it would be too high.
    And so that is really at the heart of really what the ERI 
really is. It starts with assurance, where we are showing that 
we have a stake in the game, perhaps greater than Putin's 
Russia believed that we did. And so, for the first couple of 
years, we are assuring our European allies we are going to be 
there, our commitment to Article 5 is ironclad.
    Now, as we are showing we have a better interoperability 
with them, we are putting more credible combat formations in 
there, we are showing that cohesion, now we are looking at 
trying to convince Putin's Russia that this is going to cost 
more than you think, and your ambitious behavior here may be 
met with the cost that you may not want to incur for your 
particular adventurism.
    And so we really just fall back on the principles of 
deterrence as really the foundation for some of the activities 
we are doing with ERI, whether it is a bully or whatever you 
see him as.
    Ms. Graham. Thank you.
    Ms. Ellehuus. I often think of, sort of, you know, 
childrearing metaphors in context to international relations, 
so I very much appreciate the question.
    I think, first and foremost, we need to demonstrate unity. 
So, whether it is on sanctions or, you know, just trying to 
pick off individual allies, I think that is the worst thing we 
can do, is allow him to separate us from one another. We just 
have to demonstrate that resolve and unity.
    I actually think the administration's policy of a strong 
and balanced approach to Russia is very wise, because one of 
the things that Putin seeks is influence. He wants to matter. 
He wants a seat at the table. But in order to coerce that 
behavior in the right direction, where it is supporting rather 
than undermining the international system, we cooperate with 
them in areas where they are being a constructive actor. So you 
reward the good behavior while punishing the bad--again, going 
back to the childcare metaphor.
    Ms. Graham. My kids would be appalled to hear me say this 
in an open hearing, but that approach does work.
    And thank you. I yield back. Thank you, Madam Chairwoman.
    Mrs. Hartzler. Thank you.
    We will move on to the gentleman from Oklahoma, Mr. 
Russell.
    Mr. Russell. And thank you, Madam Chairman. Thank you for 
allowing me to join your committee today.
    And thank you, panel, for being here. It is good to see Mr. 
Tyra. It has been many, many years. And, General Allvin, it is 
good to see you again.
    We have had suggestions here today of mission creep, but I 
recall, when I joined the military in the mid-1980s, in Europe 
we had two full corps of soldiers. That would have been a 
minimum of four total divisions and two armored cavalry 
regiments, not to mention air forces and allies. So this is not 
a mission creep. This is staunching the bleed-out of a presence 
to virtually nothing now in Europe.
    It calls to mind that deterrence without a deterrent is a 
bluff that gambles the future security of Europe. So I guess my 
question to the three of you is, how reassuring would it be to 
Europe if we don't have a deterrent, if we don't build this 
contingency force? What would the reaction be in that scenario?
    General Allvin. Well, thanks for the question.
    I think it, again, is trying to predict an unknown, but I 
would say that history has shown that if one seeks to split the 
alliance or a set of individual nations, then one can show how 
perhaps the team is not all playing together.
    And so, to your point, the lack of showing our commitment--
and our commitment in presence, our commitment in 
interoperability, our commitment in training and exercises to 
show that we are a cohesive, credible combat force--I think 
logic would dictate that that would have a negative effect on 
the alliance's confidence in its ability to fight as an 
alliance and repel a Russian aggression.
    Ms. Ellehuus. Can I preempt you?
    So I, again, am reassured by some of the language in the 
communique from the Warsaw Summit. NATO focused very much on 
deterrence and defense and how to reinforce that even if we 
don't have the volume of forces and capabilities in theater 
that we had previously.
    And the way that they put it is they underscored that that 
collective defense is a fundamental responsibility of NATO, and 
it relies on a whole suite of capabilities. So it is a mix of 
the nuclear, the conventional, missile defense, and, 
increasingly, even cyber and space and other elements.
    So, even if we don't have the heft of conventional forces 
that we had, I am hopeful that the way we think creatively 
about the mix of capabilities enables us to get at the problem 
and to deter.
    Mr. Tyra. So I would add to that, the U.S. has a long 
history of displaying the ability to deploy enormous resources 
against a problem, and that raising the determination in the 
U.S. and its allies is not profitable, right? And, therefore, 
you can, in fact, deploy that entire force and keep deploying 
it without having to build more of it. The economies in Europe, 
the U.S. economy, they are all capable of conducting these 
operations.
    And I think that is how we would sell them. What they need 
is assurance that the U.S. is with them, and then that would be 
enough.
    Mr. Russell. Well, thank you for that.
    And I guess my last question would be, what impact would it 
have on other nations?
    We have made much of the initiative to encourage our 
European allies to provide 2 percent towards their national 
defense, and we see some movement on that. Some is mixed. A lot 
of it is tied to a lot of factors.
    If we lead and show, from no presence to now a brigade 
combat team, with a promise of, as you suggest, Mr. Tyra, that, 
as we show up, there is more to follow--you may pick on little 
brother today, but big brother is coming. If we don't do that, 
what impact would that have on the 2 percent initiatives that 
we have worked so carefully to try to craft with our European 
allies to make their own commitments?
    Ms. Ellehuus. I can begin, since you took the last one.
    Certainly, it is a fine balance between being there and 
being a good NATO ally and doing our part while not allowing 
inequitable burden-sharing.
    So I think a good example of this is the enhanced forward 
presence [EFP]. The U.S. actually did not commit to be a 
framework nation until we were pretty certain that other allies 
were going to step up. And it goes with this thinking that, you 
know, Europeans should also be taking responsibility for their 
security and caring about it as much as we care about the 
transatlantic space. So enhanced forward presence is an example 
of how the U.S. was careful not to underwrite everything, 
because we had already done quite a bit through ERI.
    On 2 percent, I think we do need to keep the pressure on. 
Again, five allies have stepped up and are now at or above 2 
percent, and others are on their way. But we regularly, in our 
office, have people coming through and telling us that we need 
to keep the pressure on, because they need to be able to go 
back to their parliaments and argue for greater defense 
spending and why it is central to stability, economic 
stability, in their countries.
    Mr. Russell. Thank you for that.
    And I yield back. Thank you, Madam Chairman.
    Mrs. Hartzler. Thank you, gentleman.
    Now we will turn to the gentleman from Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Madam Chair, for allowing me to 
join the hearing today.
    I would love to follow up on Mr. Russell's point. We have 
talked a lot today about deterrence and about the money that we 
are committing towards that end. But I think it would also send 
a very powerful message for our NATO allies to meet their 
commitments in terms of proximity to Russia itself, to the 
threat that that potentially presents. They have the most to 
lose in a confrontation.
    And it blows me away that, of the 28 NATO member countries, 
only 5 have met a minimal threshold of 2 percent while we are 
spending near 4 percent, double all other NATO countries 
combined. And of the Baltic States, only Estonia has reached 
that--the Baltic States, who we seem to be preoccupied with in 
terms of potential Russian provocation.
    And so my concern--I don't know if you have an answer to 
it. You said that we are pretty certain that some of these 
member countries are going to meet their commitments; we need 
to do more.
    If you have something specific to share, I would love to 
hear it. If not, I would just love to make the point that we 
are creating a moral hazard by upping an investment from $789 
million to $3.4 billion without a concurrent commitment in real 
dollars or euros from our allies on the continent. And I think 
that sets its own set of problems in motion.
    The other thing that I would like to ask of General Allvin 
is, last week, we had a great panel, including Dov Zakheim, who 
talked about the tyranny of consensus. And you have been 
talking about all the reasons that ERI makes sense, everything 
that it might be able to do. I would love to get a sense of the 
intellectual rigor that went into making these decisions and 
coming up with this strategy.
    In much the same way that we may or may not have been able 
to forecast that Russia might feel encircled as we brought more 
countries formerly in the eastern bloc into NATO, is there some 
unintended consequence that we might want to think about now or 
that you could share with us, in terms of upping our 
commitment, our force structure, the amount of money that we 
are spending, ratcheting up the escalation in that area? Again, 
maybe for the right reasons; maybe we have thought all of this 
through. But assure me that you have thought through some of 
the other consequences that may not have been obvious from your 
testimony.
    General Allvin. Well, sir, I would say, specifically, with 
respect to the approach that we have taken, as I mentioned, 
there has been a transition. For the first couple years, it was 
really about assurance. And so if one wanted to say that was a 
more passive approach, because when you looked at the way that 
we were executing and had been executing, it was very 
disaggregated with our formations. And it was sort of a 
statement that we are here, we are here, but the way that we 
were here in many of the--the presence in the Baltics, for 
example, was not necessarily a credible combat formation, but 
it sent that message that we are standing next to our allies.
    And as we saw the continued malign influence and the 
activities, that is what has had us step up----
    Mr. O'Rourke. I am sorry to interrupt you. I have limited 
time.
    So I am not so interested in the thinking that went into 
coming up with this as the strategy, but the thinking that 
challenged this strategy. What are the potential risks of this 
strategy? What could go wrong?
    General Allvin. So you actually touched on it very well, 
Congressman, is that there is an escalation risk here. And so, 
as we try and understand those things which are true red lines, 
those things which are rhetorical red lines, the consistency is 
with our commitments of resources and equipment and exercises 
and increased focus in Europe. It is also with the consistent 
messaging, the messaging of what we are here to do and the 
objectionable behavior by the Russians that has caused this 
response.
    Mr. O'Rourke. From my perspective as a Member of Congress, 
Crimea caught me by surprise. And, again, from a little bit of 
a distance, although I sit on the committee and I have been 
able to be in some classified discussions on this, I think all 
of us would have liked to have known more about what was about 
to come before it hit us.
    Tell me what, since Crimea, you have done in terms--that 
you could talk about here--in terms of maybe Russian language 
specialists who are on your staff, your ability to collect 
information, the ability not just through deterrence and force 
presence but perhaps the nonforce aspects of what we do in 
Europe to prevent something from happening in the first place 
or to anticipate it before it hits us.
    General Allvin. Absolutely.
    Mr. O'Rourke. And I didn't leave you much time, so I may 
have to take this for the record, Madam Chair.
    [The information referred to can be found in the Appendix 
on page 61.]
    General Allvin. I would just--I will introduce, and perhaps 
I will get a chance to expound on it later, but the Russian 
Strategic Initiative is something I would like to share and 
talk about.
    Of course, with respect to the intel [intelligence] 
capabilities, I am not of that particular ilk, and I know that 
there are more intel professionals who can speak more deeply on 
this. But they are committed to regaining that expertise in the 
quantities that have sort of eroded over the past 15, 20 years, 
for the right reasons, because there are more global 
requirements for that. But that is a commitment that the intel 
community is making.
    The Russia Strategic Initiative is--much of it is about 
learning, it is about understanding. So, to your point, sir, 
that the surprise of Crimea, that caught a lot of us sort of 
unawares, and understanding that we need to be able to have a 
better understanding of the thinking, of the strategy, of the 
doctrine of Russia to be able to anticipate better, in 
conjunction with the increasing resources from the Intelligence 
Community, we have an understanding to how to respond to those 
and perhaps get ahead of that.
    So and I would be happy to talk further at length about the 
Russia Strategic Initiative, which is something that, 
incidentally, was initially funded through ERI.
    Mr. O'Rourke. Thank you.
    Thank you, Madam Chair.
    Mrs. Hartzler. You bet. And we are getting ready to start 
here in a minute a second round of questioning. So if you can 
stick around, we would love to have you have the opportunity to 
share any more questions you might have, because those are 
really excellent questions.
    Representative Moulton.
    Mr. Moulton. Thank you very much, Madam Chair. It is great 
to be here.
    First of all, I just want to associate myself with 
Representative Russell and Representative O'Rourke and their 
remarks about the importance of contributions to the NATO 
alliance. You emphasized how important it is that we have a 
united alliance.
    General, you used the terms ``commitment in presence,'' 
``confidence in the alliance,'' ``effectiveness of 
interoperability.'' Do you think it would be a wise decision to 
dismantle NATO?
    General Allvin. No. Absolutely not. I could go on for 
minutes or hours, but, absolutely, if NATO----
    Mr. Moulton. Well, you are preaching to the choir here. We 
just, unfortunately, have a major-party candidate who thinks 
that is a good idea.
    You also talked about the importance of deterring Putin. 
And I couldn't agree more that he is a real threat. Is it 
helpful to have people talking about his leadership, praising 
his military accomplishments? Is that a good way to deter 
Putin, General?
    General Allvin. I can really only speak to the way that we 
can try and avert behavior through our strength and, sort of, 
the primary deterrence theory model. With respect to other 
influences outside of the principles of deterrence, which are 
deny the benefit or increase the cost, I am not really a 
deterrence specialist beyond the principles of deterrence 
theory, so I really can't speak to those elements.
    Mr. Moulton. Thank you.
    Would anyone else like to comment on that?
    Ms. Ellehuus. We work with alliances and partnerships every 
day, so we see the value of those.
    And the transatlantic community, you know, Putin aside, 
when we have other nations who are undermining the rules-based 
international order which we have tried so hard to create, I 
think the transatlantic community has greater influence 
together.
    And so, outside of a NATO perspective, I think in terms of 
relative influence, there is a rationale for keeping NATO and 
increasing our relationship with individual allies in the EU.
    Mr. Moulton. Great. Thank you very much.
    I would like to talk about something that some other people 
have brought up, which is the Russian hybrid warfare threat and 
how we are meeting that threat.
    When I was in Eastern Europe looking at the threat of 
Russia last year, it was very clear that we have gotten--you 
know, we were doing some good tank drills and things like that, 
but Russia has an incredibly well-developed propaganda effort--
for example, extensive propaganda, both clandestine but also, 
frankly, very public, with their public TV stations.
    One of the lessons that we have learned in fighting ISIS 
[Islamic State of Iraq and Syria] over the past several years 
is that we can drop a lot of bombs and kill a lot of ISIS 
fighters, but if we don't address the recruiting effort, either 
right there on the ground amongst the family and friends of 
those we kill or through the Internet with folks even back 
home, then we are really not going to win this fight against 
ISIS.
    And it strikes me that there is a bit of an analogy with 
the fight against Russia, that we can add a few more battalions 
of tanks and do some larger tank drills and shows of force with 
our Air Force, but if we are not addressing the way that they 
are really undermining confidence in the NATO alliance right 
there in Eastern Europe, then we are probably not going to win 
this fight in the long run.
    So, General, can you talk about the balance that you see in 
the ERI and whether we are putting enough effort into those 
types of battles as well?
    General Allvin. I would say that balance of effort does not 
necessarily equate to balance of dollars.
    Mr. Moulton. Sure.
    General Allvin. So I think that there are some areas that 
are smaller dollar amounts within ERI, and some of the things 
that we are doing just within the normal conduct of business 
with our Special Operations Command in Europe that really get 
at this using the host nation to strengthen their ability to 
attribute, to be able to sort of call out, to be able to 
identify that which is true with that which is being, you know, 
formulated, the facts on the ground.
    I think, inherently, you step back and it is easy to 
understand how a country that acts fully out of interests 
versus a country which is value-based has an advantage 
tactically in being able to not be encumbered by the truth. So 
it makes it a bit of a challenge, but one that I think we 
embrace happily as a values-based nation.
    So I think those sort of things that we are doing to be 
able to help them attribute it, confront it, call them out, and 
be able to identify the differences between the truth and what 
is being portrayed, that is being funded partially through ERI 
and some of the engagements that we do in the day-to-day 
business within European----
    Mr. Moulton. Do you think it is being funded sufficiently?
    General Allvin. Honestly, I am not enough of an expert to 
say what----
    Mr. Moulton. I mean, my impression a year ago was that we 
were doing very little, compared to what they are doing, to 
counter their effort. So, I mean, if there has been a dramatic 
change in the last 12 months, then I would be willing to revise 
my assessment, but----
    General Allvin. I would offer that, as we look at this, it 
is not necessarily the Russian military alone that is doing 
this. They are approaching it with a whole-of-government, 
whole-of-nation approach, and----
    Mr. Moulton. And do we have enough of a whole-of-nation, 
whole-of-government approach in response?
    General Allvin. I would say that is beyond my particular 
area of expertise to----
    Mr. Moulton. From your perspective, do you think you are 
being supported enough? I mean, you have a job that is very 
dependent on these other arms of government. Do you think we 
are doing enough?
    General Allvin. I honestly--understanding the tensions that 
exist within this government for all the things that have to be 
done, I cannot speak credibly as to what the other elements of 
the government are doing, whether it is sufficient.
    Mr. Moulton. So, General, if you cannot even speak to what 
the other elements of government are doing, it certainly 
doesn't give me enough confidence that we have enough of a 
whole-of-government approach to this threat.
    Thank you very much.
    Madam Chair, thank you.
    Mrs. Hartzler. Thank you very much.
    Now, as has been alluded to, in this initiative for fiscal 
year 2017, we are funding the operation at $3.4 billion, which 
is up from $789 million authorized and appropriated last year. 
So that is a huge increase in investment.
    And the request addressed most of those funds towards a 
conventional buildup, including consecutive, rotational, or 
heel-to-toe deployments of U.S. troops and the prepositioning 
of an armored brigade combat team's equipment in Europe. And 
the funds also are providing for additional military exercises 
with one or more foreign partners, building foreign military 
capacity, countering unconventional threats, and military 
construction, or MILCON, projects.
    So, just for the record, could you expound on specific 
examples of the way this money is being used, specific MILCON 
projects that are going to be using this money, specific 
training exercises that you have been doing, and examples of 
building that foreign military capacity?
    General.
    General Allvin. Yes, ma'am. Well, I would say 
specifically--well, starting with the exercises. That is one we 
alluded to earlier, whether it be Anakonda 16 or the BALTOPS or 
Cold Response, Trident Juncture. These are elements of 
exercising that we are enabling to grow and be more 
multinational and more opportunities to test interoperability 
amongst nations. So, on the exercise, it has been very robust.
    The infrastructure, when we talk about MILCON, it is not 
necessarily what we would consider big construction. It is a 
very small percentage. But the military construction is really 
to allow the infrastructure of the host nation to better 
support their training and our training needs alongside them.
    So, when you have slight improvements, for example, in 
training ranges, in Bulgaria, for example, that allows us to 
have better bilateral or multilateral exercising and training 
interoperability exercises, given the improvements in the 
ranges, for example.
    With respect to the presence--I would say that each of 
these five lines of effort, the key is that this is one area 
where the sum is much greater than the parts. If you have the, 
sort of, slight increase in the infrastructure, it enables you 
to do more robust exercising. If you have a greater presence of 
this armored brigade combat team, which is their heel-to-toe, 
fully with their equipment, it allows you to do more broader 
engagements and interoperabilities and leverage the small 
infrastructure improvements that we are doing. As you increase 
the engagements with your partners at the smaller level with 
building partnership capacity, that is done through the 
presence and the engagements of those forces that are able to 
come over.
    And in a purely deterrence aspect, which is really what 
this--the prepositioned stocks are largely a deterrent aspect, 
but they also enable the Army to in future times come over and 
fall in on that and be able to exercise that as a deterrent. So 
each of those really feed into each other for an overall 
increased deterrent effect.
    Mrs. Hartzler. Very good. And, as we discussed privately, 
you will be modernizing some of the bunkers and some of the old 
facilities that are there in order to house the equipment and 
to be able to have those prepositioned stocks.
    What can we expect our allies to contribute to the ERI from 
both a capability and capacity perspective?
    And, separately, would the U.S. Foreign Military Sales 
program be a useful mechanism through which the U.S. could aid 
our ERI partners? And, if so, are there any FMS cases that are 
currently working their way through the FMS process relating to 
this initiative and our partner nations?
    Ms. Ellehuus. I can begin on that.
    Certainly, you know, as we have moved from assurance to 
deterrence, and we have learned more each year as we have 
proceeded with the training and exercises and other efforts 
under ERI. So, for example, as we do the training and 
exercises, we find other vulnerabilities, in terms of 
maneuverability or movements or gaps in infrastructure or 
communications, and so we are able to build on that.
    And those aren't just vulnerabilities that we, the United 
States, needs to come in and fix; those are lessons learned 
that we pass on to individual allies about their 
vulnerabilities and what they need to do to reinforce their own 
defense, and there are things that we pass on to NATO as well.
    So, to give you one example, you are probably familiar with 
NATO's RAP, or Reassurance Action Plan, which was a holdover 
from the Wales Summit in 2014. And the NAC [North Atlantic 
Council] recently agreed the Readiness Action Plan reception, 
staging, and onward movement and preposition capability 
packages, whereby NSIP [NATO Security Investment Programme] 
funding, about 300 million euros, will be used to support ERI 
projects, so design and construction, including storage of U.S. 
equipment in Poland.
    So, you know, that is a lot of words, but, in short, we 
have said we want to preposition stocks in Poland and we want 
to train there, and NATO is recognizing that they will take 
advantage of those sites as well. And so they recognize that 
NATO will also provide funding for that. So that heavily 
reduces the bill for the U.S. and allows us to either give back 
that ERI funding or use it elsewhere.
    And so I give you that example just to show the kind of 
expectations we are conveying not only to individual allies, in 
terms of host-nation support, but to NATO, saying, you are 
benefiting from this as well, you are going to use those 
training ranges, you are going to use those bases.
    In terms of your second question about building partner 
capacity and FMF [Foreign Military Financing], I would have to 
get back to you because I would need to confer with State 
Department about what the security assistance plan is for this 
year.
    But I do know that in the discussions that DOD has been 
involved in with State Department about building that program, 
we have argued for pooled funding for the Baltic nations to 
increase their capabilities under the Baltic Defense 
Capabilities Initiative, particularly in areas such as air 
defense. And so we have tried to look at them, you know, as 
three rather than individual nations and look at what they 
already have and what they might need in future to reinforce 
their own defenses, using mechanisms like FMF.
    But we can certainly take that for the record and get you 
exact numbers for FMF.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mrs. Hartzler. I appreciate that. Yeah, this subcommittee 
has been looking at the foreign military sales process and ways 
that it is impacting our global defense, as well as any 
problems, so that is why I ask that question.
    My last question before I turn to the other members is, 
giving the information coming out of Eastern Europe, I 
understand that there are very lethal threats to our primary 
ground combat platforms and their crews. And many in the Army, 
including General McMaster, the Director of the Army 
Capabilities Integration Center and Deputy Commanding General 
of Futures at the U.S. Army Training and Doctrine Command, has 
stated that our ground combat vehicles are losing their 
qualitative edge over our adversaries. ``With Russia 
demonstrating the capability to field advanced anti-tank 
weapons and thermobaric warheads, our armored vehicles and 
servicemembers will be vulnerable in a fight.''
    So I understand that new technologies like the Active 
Protection System, the APS, can defeat these threats, and they 
have already been successfully fielded and combat-tested by our 
allies with great results. And I have been a very strong 
advocate of APS technologies to protect our men and women and 
believe we need the technology fielded now.
    So, General Allvin, can you tell us how EUCOM, in 
particular, views the threat situation to our ground combat 
vehicles? And how is EUCOM working with the Army to address the 
threat sooner rather than later, especially if the APS solution 
already exists?
    General Allvin. Well, I will tell you that what we are 
learning in--as we mentioned, this last 30 months has been--it 
is relatively rapid, I guess, in bureaucratic timeframe, but we 
have been getting smarter about what it takes to operate in the 
vicinity of and what combat might look like if, God forbid, it 
were to actually happen through some of our contingency 
planning and wargaming.
    And that actually has yielded deficiencies in several 
domains, so it is not only just the land domain but the air 
domain. Their ability to inhibit freedom of movement and the 
qualitative edge is, sort of, waning in several areas.
    So, while I can't speak to this specifically, what we do as 
a result of that, those are the capability gaps and shortfalls 
that we do submit in each of those domains, those shortfalls, 
as they are identified and clarified to the Department. And 
that goes back to the services and into the building to come up 
with the solutions to those.
    So we do identify the gaps and the shortfalls, and then the 
solutions come out through OSD [Office of the Secretary of 
Defense] and the services. And I would say that this one, this 
particular one, has not elevated above others to us. There is a 
general category of inhibitors to freedom of movement and 
things where the qualitative edge has waned with respect to a 
potential confrontation with the Russians.
    Mrs. Hartzler. I am having a classified briefing tomorrow 
on some of these issues, so perhaps we can delve further into 
those vulnerabilities at that time. But thank you for your 
answer.
    Ranking Member Speier, do you have any additional 
questions?
    Ms. Speier. No.
    Mrs. Hartzler. Very good.
    Mr. Scott, do you have any additional questions?
    Mr. Scott. General Allvin, I wanted to follow up, and this 
may give you a chance to speak about the initiative you were 
talking about earlier.
    What requirements remain unfunded under the current budget, 
and how would you assess the risk that that causes the forces 
under European Command? And then just any general comments that 
you have. I know you had some comments about the Russian 
initiative.
    General Allvin. Well, thank you.
    I would say that, in general, we do need those forces that 
are coming in through ERI, those increased rotational forces. 
And I think one of the other areas that has been identified is 
also, as we mentioned, the ability to counter this anti-access/
area denial capability that the Russians have been able to put 
up that could inhibit the freedom of movement. That is about as 
much depth at this classification.
    But I would say thank you for the opportunity to reengage 
on the Russia Strategic Initiative. Because one thing we 
certainly understand is that we do have some learning to do, 
and we have to do it fairly rapidly. And so, while the 
Intelligence Community is really working hard on being able to 
increase the robustness and the capacity of their resources and 
their analysts and the understanding, we also in the Department 
understand that this is an issue that crosses combatant 
commands and it is something that we need to understand as a 
department.
    And so, thanks to initially the funding of the European 
Reassurance Initiative, we have developed this Russia Strategic 
Initiative. And I can tell you at this classification level, 
its primary role is to enhance our understanding and to help 
support some of the planning that we would do and some of the 
deterrent activities.
    A lot of these questions that have been asked today we are 
still trying to get to the correct answers on. The Russia 
Strategic Initiative is moving us closer to a better 
understanding that will help us be able to have more satisfying 
answers to questions like this in the future.
    And I would say that this is an example, as we look at the 
question of what is in the OCO which should be into base, this 
is one of those that the Department realizes this is a long-
term initiative. And so it has been transitioned into a program 
of record. So the funding that started off in ERI is going to 
transition into the Army's base budget as a program of record. 
So this is one of the examples where we keep analyzing those 
things that we think are going to be long-term requirements and 
how we might be able to move them into the base budgets.
    So thank you for the opportunity to respond.
    Mr. Scott. Do you think that Mr. Putin underestimated the 
global response with his actions in the Ukraine?
    General Allvin. That is a very difficult question. It is a 
great question, and I think that there are many competing 
scholars who have differing opinions as to whether he achieved 
some level of success and is satisfied with that at this point. 
There are others who will say that he was surprised, that he 
did not anticipate the level of national unity post-Crimea that 
actually came against him when he went into the Donbass.
    I will say that is still an open question at this point, 
but, as we look at the future, we do understand something about 
Russia, that they are a learning and adaptive country. This is 
not the Soviet Union of old. And so, as you look at the tactics 
and the techniques and what they have been doing, starting with 
Georgia in 2008 up to now, they are learning and adapting.
    The question of what they are learning from Ukraine I 
believe is still an open one, and I can't give you a good, 
solid answer on that.
    Mr. Scott. Do either of you have an opinion on that that 
you would like to share?
    Ms. Ellehuus. I think he certainly underestimated the 
resolve coming out of NATO. I mean, the increase in defense 
spending and the refocus on deterrence and defense, that has 
really energized the alliance at a time when I think some 
countries were certainly sitting back and looking for a further 
peace dividend. It has woken up a lot of people.
    I think of the example of Germany, in particular, which has 
always played a pretty calm role in arbitrating between, kind 
of, Europe and Russia. And, you know, Chancellor Merkel speaks 
Russian and has a long history there and so thought she had an 
understanding of where he was coming from. But, clearly, a lot 
of countries woke up and realized that you can't handle----
    Mr. Scott. They also have very strong trade relationships 
with Germany, as I understand it. And I would think that that 
would lead to maybe part of the surprise that he had from----
    Ms. Ellehuus. Certainly. But Germany, in particular, has 
been very strong on sanctions, with Chancellor Merkel leading 
the charge in their rollover each and every time and focusing 
on the importance of Minsk implementation. Other nations 
haven't been as strong, but she has been a real champion of 
that, despite the damage it has done to Germany's economy.
    Mr. Tyra. So I would observe that every action that has 
been taken has resulted in an action that is unhelpful to them. 
And so the more times they push, the harder it gets. And I 
think the reaction is they are only making the coalition 
stronger, they are only making NATO stronger. And I think they 
will eventually get to that point.
    I would observe that Germany, among others, is one of the 
framework nations for the EFP. And so I think it is clear where 
they believe their future lies.
    Mr. Scott [presiding]. Well, certainly, every member of 
this committee is aware of the challenges of what is in OCO 
that we would prefer to be in base and something that we look 
forward to resolving as time goes forward.
    I would make one final point, which is, certainly, he saw 
where our NATO allies increased their defense spending, and he 
can also see when we reduce our defense spending. And I think 
that maybe leads to a false perception of weakness of the 
United States and our resolve.
    With that, Mr. O'Rourke.
    Mr. O'Rourke. Thank you.
    General Allvin, going back to the line of questions about 
unintended consequences or thinking through next-order effects 
of some of the decisions we are making today, we increase our 
force size in Europe and the amount that we are spending there; 
ideally, Russia gets the message and it deters them from 
provocation or doing things that we don't or the Europeans 
don't want them to do. What if Russia increases its force size 
with its border with NATO?
    To Ranking Member Speier's question in terms of 
anticipating the budgetary consequences of this, do we see you 
back here, or someone from the Pentagon, 2 years from now 
saying, ``Look, we thought $3.4 billion was going to do the 
trick. It turns out the Russians have put two more divisions 
here. We need to step up''?
    You can understand my concern along this trajectory. Tell 
me how you have addressed that concern for yourself or for 
others in the Pentagon.
    General Allvin. Well, certainly, our role in U.S. European 
Command is to be able to identify, sort of, the demand as we 
see it to be able to counter security threats in Europe. So to 
the extent that--and I certainly wouldn't be able to predict 
what might happen in the coming years.
    I think our role here is to ensure that the money that we 
are being given now, we are spending it in the most efficient 
and effective manner, to where we are actually increasing the 
power of the alliance, increasing the power of not just the 
United States forces over there but the interoperability and 
that what we are learning from our training and exercises is 
making the entire alliance stronger.
    And if we succeed at that, then, in fact, the likelihood of 
coming back--and whether that comes back or makes it through 
the Department--because that is actually what we do. We compete 
with all the other combatant commands to say, this is what we 
see in our AOR [area of responsibility]. I think the more 
successful we are in utilizing the resources we have now to 
help build the alliance and build that unity, the less likely 
it is that you will see us here, you know, in a couple years.
    Mr. O'Rourke. So a success would be we have calibrated this 
correctly, we have spent the right amount, we have put the 
precise number of forces there to get the desired outcome. 
Failure would be the Pentagon coming back or a future 
administration coming back and saying, actually, we didn't 
quite get this right; it looks like the Russians have 
escalated; we now need to, in turn, escalate.
    Let me ask you, just because of limited time, as we bring 
more U.S. forces into this region and as the Russians respond 
in kind, I think we increase the opportunities for 
miscalculation. You mentioned your efforts towards ensuring 
that we do a better job of gathering intelligence and are just 
smarter and more effective with the resources that we have 
there.
    Talk about military-to-military cooperation with Russia, 
your relationships with your counterpart or your counterparts 
in Russia and your ability to talk to each other to ensure that 
we don't have a miscalculation that leads to an unintended 
conflict or war.
    General Allvin. I am going to actually probably yield that 
second to my policy counterpart.
    But I will just say quickly on the first, I don't know that 
I would calculate that failure would be necessarily that we 
come back here. It might be a failure to predict. There are 
certain things that they say the enemy gets a vote. So the 
failure to predict exactly what an unpredictable Russia would 
do could actually result in us coming back.
    So there are many things that we don't fully have control 
over. We are going to focus on the things we do have control 
over to make sure that, again, we are making the best use of 
the resources that you are providing for us.
    I am going to actually turn it over with respect to the 
mil-to-mil policy to Rachel.
    Ms. Ellehuus. Yes, certainly. Thank you.
    Yes, I mean, I think when we look at these programs each 
year, success would actually be Russia behaving responsibly and 
becoming a cooperative partner, as it has been in the past, on 
Afghanistan, in the Balkans. We have very positive examples of 
a time when they did work with the international community.
    If things have gotten worse, I think we need to actually 
have a more fundamental relook at our prioritization of the 
Russia threat vis-a-vis other threats that the Department and 
the U.S. Government have identified.
    In terms of how--you know, your question about 
deconflicting and dialogue with Russia, again, the strategy is 
strong and balanced, so the ``balanced'' side of that is having 
a dialogue with Russia. Today, in fact, there is a NATO-Russia 
Council meeting. It is the second since 2014, when we said no 
business as usual and actually stopped the military-to-military 
cooperation under the business-as-usual rubric.
    So we do continue that dialogue, not least in Syria, where 
it is very important that we talk with them to avoid 
miscalculation. And every time they have a violation of 
airspace or fly too close to our ships, we also call out that 
bad behavior, because the last thing we need is miscalculation 
or an accident.
    Mr. O'Rourke. Yeah. Well, I appreciate that.
    And, as I yield back, I would just like to make the point 
that I would view continued escalation to be a failure. And I 
would hope that, in maybe working through the committee staff, 
the ranking member, and the chair, there would be some way to 
hold a joint hearing with our colleagues on Foreign Affairs, 
because I would really like to understand everything that we 
are doing to address these issues militarily but also non-
militarily.
    And nothing that I can think of condones Russia's behavior 
in the areas that we have talked about, but there is a logic to 
it. And I can understand them responding to the growth of NATO, 
to things that happened in Ukraine, a part of the world that is 
central to the Russian psyche. And the responses, while not 
justified, are understandable to me.
    And, in that same way, I want to make sure we are thinking 
through adding $3.4 billion to the fire, bringing more forces 
in, and potentially setting us on a trajectory where we will be 
obligated, as things continue to escalate, to bring more forces 
and more dollars into play, thereby provoking additional 
responses that may not be wise, they may not follow the 
international norms, but may follow a logic that we have seen 
play out from Georgia to Ukraine to Crimea.
    And so, anyhow, I would just like to set that out there. I 
really appreciate your all's work and response to our 
questions.
    With that, I yield back to the chair.
    Mr. Scott. Ma'am, do you have any?
    Ms. Speier. No.
    Mr. Scott. I want to thank all of you for being here. It is 
very clear to me that we need your expertise.
    And the other thing that is clear to me from this hearing 
is that Putin--he may be predictable sometimes and at other 
times unpredictable, but he clearly would not have stopped in 
the Ukraine, in my opinion, had the United States not shown the 
resolve and had our NATO allies not shown the resolve that they 
did to stop him.
    And so we will have honest and respectful discussions about 
the funding of the operations in that part of the world. And I 
look forward to your input on that, and I look forward to 
making the world a better place.
    With that, we are adjourned.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]

     
=======================================================================


                          A P P E N D I X

                             July 13, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 13, 2016

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 13, 2016

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 13, 2016

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER

    Ms. Ellehuus. Yes. For Ukraine, there is one FMS case for 2,250 AN/
PVS-14 Night-Vision Devices that is still being processed using the 
European Reassurance Initiative (ERI) funds, and the devices are 
tentatively scheduled to be delivered by the end of September 2016. 
Other than Ukraine, there are no other FMS cases to our Partner nations 
that are funded with ERI appropriations.   [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. O'ROURKE
    General Allvin. While more work needs to be done, EUCOM has 
enhanced our intelligence, surveillance, and reconnaissance 
interoperability and sharing with partner nations in order to maximize 
limited resources. This includes multiple lines of effort: coordinating 
processes, sharing key intelligence questions, deconflicting 
capabilities, and developing shared architecture and tools.   [See page 
17.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 13, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MRS. HARTZLER

    Mrs. Hartzler. Please expand on your comments about the value of 
restricting Russia's options by ``bracketing'' the scope of its hybrid 
warfare. Even if Russia takes actions at the lower-intensity end of the 
hybrid warfare spectrum, what value do you foresee in continuing to 
invest the full amount of requested ERI funds to increase the costs to 
Vladimir Putin--and therefore decrease the likelihood--of higher-end 
military engagements? Do you believe the U.S. should continue to fund 
ERI based on an analysis of the region's strategic goals and the 
changing operational landscape in Europe?
    General Allvin. (U) In order to effectively counter the lower end 
of hybrid warfare and strive to prevent high end conflict, USEUCOM must 
understand what messages our adversary is pushing, which messages have 
traction with key audiences and how our adversary reacts to US counter-
messaging and reassurance/deterrence activities. This understanding 
will both help USEUCOM message more effectively, and avoid 
unintentionally provoking our adversary.
    (U) A lack of a presence in the information environment during 
steady state operations would leave DoD at a distinct disadvantage when 
dealing with audiences that have been inundated with adversary 
propaganda and malign influence efforts. USEUCOM is reliant on ERI 
funding to augment the ASSURED VOICE base funding it currently receives 
in order to effectively counter propaganda and deter aggression. Until 
this funding issue is addressed, USEUCOM's ability to compete in the 
information space will be limited and therefore the risk of higher end 
military engagement is increased.
    (U) With regard to the last question on if ERI should continue to 
be funded, as a Combatant Command it is our responsibility not to 
advocate for funding sources but to clearly communicate requirements 
given our strategic environment and assigned missions. Given this, we 
clearly see an enduring demand signal to successfully deter Russia, and 
sincerely appreciate the support to date Congress has provided through 
ERI.
    Mrs. Hartzler. Please provide an update on the timeline for 
deploying the 80 M-1 tanks and 140 Bradley vehicles to EUCOM, and 
please elaborate on the the types of modernization and capability 
improvements that will be integrated into each set of vehicles.
    Mr. Tyra. Starting in 2nd Quarter Fiscal Year 2017, the Army will 
initiate heel-to-toe rotations of an Armored Brigade Combat Team (ABCT) 
to Europe. The current plan is to rotate units with 87 M1A2SEPv2 Abrams 
tanks and 138 Bradley Fighting Vehicles (BFVs). With respect to the 
Bradley Fighting vehicles, 125 are M2A3 BFVs and 13 are M7A3 Bradley 
Fire Support Team (BFIST) vehicles. These vehicles have digital 
architecture and 2nd Generation forward-looking infrared which provides 
visible imaging for day or night operations. If the European 
Reassurance Initiative program continues, the Army would recommend 
fielding an additional Armored Brigade as prepositioned stock. This 
would provide U.S. Army Europe two complete Armored Brigade 
prepositioned stock sets while continuing to rotationally deploy one 
ABCT.
    Accordingly, the Army has requested funding to modernize 14 Abrams 
and 14 BFVs available due to unit conversions in the European 
Reassurance Initiative portion of the 2017 President's Budget. This 
will begin building a second ABCT set in Europe.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
